U.S. Department of agriculture
 Office of Inspector General
      Southwest Region
        Audit Report


      Food and Nutrition Service
     Child and Adult Food Program
        Metro Feed-A-Meal, Inc.
         Winnsboro, Louisiana




                 Report No.
                 27601-8-Te
                 MARCH 2001
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL
                                        Southwest Region
                                         101 South Main
                                       Temple, Texas 76501

DATE:                March 14, 2001

REPLY TO
ATTN OF:      27601-8-Te

SUBJECT:      Child and Adult Care Food Program Metro Feed-A-Meal, Inc.,
              Winnsboro, Louisiana

TO:           Ruthie Jackson
              Regional Administrator
              Food and Consumer Service
              1100 Commerce Street, Room 5-C-30
              Dallas, TX 75242


This report presents the results of our audit of the Child and Adult Care Food Program
operations administered by Metro Feed-A-Meal of Winnsboro, Louisiana.

The written responses from FNS and the Louisiana Department of Education to the draft
report are included as exhibit E. Based on the written responses to the draft report, we
concur with the management decision for Recommendation No. 1. Excerpts from the
responses and our comments are presented in the Findings and Recommendations
section of the report. Further, this section of the report explains the actions necessary to
accept management decisions on Recommendations Nos. 2, 3, & 4.

In accordance with Department Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the timeframe for implementing the
recommendations for which management decisions have not yet been reached. Please
note that the regulation requires management decisions to be reached on all findings and
recommendations within a maximum of 6 months from report issuance. Please follow your
internal agency procedures in forwarding final action to the Office of the Chief Financial
Officer.



       /s/
ROBERT E. GRAY
Regional Inspector General
  for Audit

Attachment
                      EXECUTIVE SUMMARY
                      METRO FEED-A-MEAL, INC.
                       WINNSBORO, LOUISIANA

                        REPORT NO. 27601-8-Te

                                       The Louisiana State Department of
                                       Education, Division of Nutrition Assistance,
     RESULTS IN BRIEF                  administers Federal funds to reimburse
                                       public or nonprofit sponsoring organizations
         (sponsors) for performance of United States Department of Agriculture
         (USDA) Child and Adult Care Food Program (CACFP) activities as
         authorized by legislation. The program is intended to enable sponsor
         organizations to integrate nutritious food service with organized care
         services for enrolled participants. Administrative cost payments to the
         sponsors may not exceed the lesser of the actual costs of administrating
         the program, up to a maximum amount per home or the amount of
         administrative costs approved by the State agency in the sponsor’s
         budget. Day-care providers are reimbursed for meals served to eligible
         children. Metro Feed-A-Meal, Inc. (Metro), contracts with the Louisiana
         Department of Education as a sponsoring organization. From their
         headquarters in Winnsboro, Louisiana, Metro, sponsors day-care home
         providers in various rural towns in northeast Louisiana.

           The audit was performed as part of a nationwide audit of CACFP. Of the
           64 sponsors operating in Louisiana as of March 9,1999, we selected
           Metro based on a risk assessment of two sponsors recommended by the
           State agency. Our objectives were to: (1) conduct an intensive review
           (sweep) of a sponsor who we identified as a potential problem sponsor,
           (2) identify the types and magnitudes of abuses in which the sponsor
           engaged, (3) provide data to Food and Nutrition Service (FNS) and the
           State agency to affect claims and/or sanctions against the sponsor, and
           (4) refer cases of potential fraud to Office of Inspector General (OIG)
           Investigations.

           A sponsor may be determined to be “seriously deficient” in its
           administration of the CACFP by the State agency if the sponsor fails to
           monitor or train its providers. The conditions that we found at this
           sponsor’s providers may warrant this determination. In January 2000,
           155 of the sponsors’ providers claimed meals totaling $32,239. We
           made visits to 72 providers and examined the claims of 65 of the
           providers that subsequently filed meal claims in January 2000. We
           determined that 59 providers did not comply with program regulations.
           These providers did not comply with recordkeeping requirements, did




USDA/OIG-A/27601-8-Te                                                       Page i
             not operate during approved hours of care and meal times, claimed
             meals for resident children when a nonresident child was not claimed,
             claimed meals for children who were not registered for CACFP,
             exceeded licensed capacity, and/or did not comply with safety
             requirements. As a result, they claimed $13,163 in excessive meal
             reimbursements for January 2000; of this amount the sponsor disallowed
             $3,596. Further, we questioned whether nine of these providers provided
             meals as claimed because two providers were not home during our
             attempted visits, and the other seven either withdrew from the program,
             or were terminated following our visits. We concluded that these
             conditions developed because the sponsor did not effectively monitor the
             providers.

                                     We recommend that FNS instruct the State
                                     agency to evaluate the conditions disclosed
 KEY RECOMMENDATIONS                 in this report and determine if the sponsor is
                                     seriously deficient in its administration of the
        CACFP and to take the appropriate actions if this determination is
        warranted. We also recommend that the State agency recover $9,567
        ($13,163 claimed less $3,596 offset by the sponsor) in meal claims.
        Further, the State agency should examine the history of participation for
        the two providers that were not home during our visits and determine
        whether they have histories of fraudulent participation.

                                         In their responses, FNS and the Louisiana
                                         Department of Education concurred with the
     AGENCY RESPONSE                     findings and recommendations. They also
                                         reported the State agency terminated the
sponsor. (See exhibit E.)

                                       We have accepted a management decision
                                       on Recommendation No. 1. We will be able
           OIG POSITION                to accept management decisions for the
                                       remaining recommendations when FNS and
the Louisiana Department of Education have taken the action outlined under OIG
Position in the Findings and Recommendations section of the report.




USDA/OIG-A/27601-8-Te                                                        Page ii
                                            TABLE OF CONTENTS



EXECUTIVE SUMMARY............................................................................................................. i

INTRODUCTION..........................................................................................................................1

FINDINGS AND RECOMMENDATIONS.................................................................................5
     CHAPTER 1 – PROVIDER NONCOMPLIANCE WITH REGULATIONS....................5
          FINDING NO. 1 .................................................................................................................5

          VALIDITY OF PROVIDERS’ MEAL CLAIMS QUESTIONABLE.............................5

          MEAL DISALLOWANCES DUE TO NONCOMPLIANCE WITH PROGRAM
          REQUIREMENTS............................................................................................................8

          RECOMMENDATION NO. 1 ........................................................................................12

          RECOMMENDATION NO. 2 ........................................................................................13

          RECOMMENDATION NO. 3 ........................................................................................13

          RECOMMENDATION NO. 4 ........................................................................................14

EXHIBITS....................................................................................................................................15
     A – SUMMARY OF MONETARY RESULTS...................................................................15
     B – SUMMARY OF PROVIDERS NOT HOME ...............................................................16
     C – SUMMARY OF PROVIDERS WITH ERRORS FOUND DURING HOME
     VISITS....................................................................................................................................17
     D – SUMMARY OF PROVIDERS REQUESTING INACTIVE STATUS OR NOT
     PARTICIPATING IN CACFP AFTER OIG HOME VISIT ...............................................21
     E – AUDITEE RESPONSE TO DRAFT REPORT.........................................................22
ABBREVIATIONS .....................................................................................................................24




USDA/OIG-A/27601-8-Te                                                                                                         Page iii
                             INTRODUCTION

                                       Metro, of Winnsboro, Louisiana, is a
                                       sponsor of day-care facilities that provides
       BACKGROUND                      meals to children enrolled in the USDA
                                       CACFP. The program is intended to enable
         institutions to integrate nutritious food service with organized care
         services for enrolled participants. Each day-care home shall serve one
         or more of the following meal types: breakfast, lunch, supper, and
         supplemental food snacks. Reimbursement shall not be claimed for
         more than two meals and one supplement snack provided daily to each
         child. To be eligible for reimbursement, the meals must meet specified
         nutritional standards. The program is administered at the Federal level
         by FNS and in most States by a State agency. In Louisiana, the
         administering State agency is the Louisiana State Department of
         Education, Division of Nutrition Assistance.

           To participate, a facility must provide day care in either a day-care home
           (home) or a day-care center. Homes are operated by providers in their
           personal residences and must be licensed in accordance with applicable
           local licensing regulations. Louisiana does not require licensing of
           homes, but does require that homes, which receive any form of
           Government assistance be registered through the Department of Social
           Services. The home can serve up to six children ranging from birth
           through 12 years of age. The registration period is 1 year.

           The Department of Public Safety, Office of the State Fire Marshal, makes
           onsite inspections of the home at the location given by the provider on
           Form OFS PI-13a. A checklist is used during the inspection to assure
           that health and safety standards are met in the home. The fire marshal
           must visit the home each year before the provider can be certified.

           State agencies administer their programs through sponsors such as
           Metro. Sponsors are public or private nonprofit organizations that
           function as liaisons between the State agency and the facilities they
           sponsor. Sponsors are responsible for program operations in the
           facilities they sponsor. Sponsors are required by regulations to carry out
           certain oversight activities. For example, they are required to regularly
           visit each of their providers to ensure that the providers are in compliance
           with program requirements. Sponsors are also required to provide
           annual training to providers. Home providers cannot participate directly
           in the program but must participate through a sponsor.




USDA/OIG-A/27601-8-Te                                                          Page 1
           Each month a sponsor collects meal count and attendance data from its
           home providers, prepares consolidated monthly claims, and submits
           them to the State agency. The State agency pays the sponsor, and the
           sponsor reimburses its providers.

           Federal regulations also allow sponsors to claim reimbursements for their
           actual costs of administering the program, up to a maximum amount per
           home. The amount per home is adjusted annually and varies depending
           on the total number of homes sponsored. The more homes a sponsor
           administers, the more reimbursement it can claim. During any FY,
           administrative cost payments to a sponsoring organization may not
           exceed the lesser of (1) actual expenditures for costs of administering the
           program, less income to the program, or (2) the amount of administrative
           costs approved by the State agency in the sponsoring organization's
           budget, or (3) the sum of the product obtained by multiplying each month
           the sponsoring organization’s: (i) initial 50 homes by $76 (July 1998
           through June 1999) or $78 (July 1999 through June 2000); (ii) next
           150 homes by $58 (July 1998 through June 1999) or $59 (July 1999
           through June 2000).

           The sponsor, Metro, received $711,719.80 in Federal funds for FY 1999.
            The sponsor kept $122,719.04 of the funds to cover its administrative
           expenses and disbursed the balance to its enrolled providers. On
           average, the sponsor enrolled 171 providers in FY 1999. In December
           1999, the sponsor received $11,157 in administrative reimbursement
           and $45,330 in meal reimbursement for 173 providers.

                                      The objectives of the audit were to: (1)
                                      conduct an intensive review (sweep) of a
        OBJECTIVES                    sponsor who we identified as a potential
                                      problem sponsor, (2) identify the types and
         magnitudes of abuses in which the sponsor engaged, (3) provide data to
         FNS and the State agency to affect claims and/or sanctions against the
         sponsor, and (4) refer cases of potential fraud to the Office of Inspector
         General (OIG) Investigations.

                                        We selected the sponsor, Metro, located in
                                        Winnsboro, Louisiana, based on the results
             SCOPE                      of our risk analysis performed on two
                                        sponsors submitted to us by the State
           agency as potential audit candidates. The risk analysis included (1)
           review of the sponsor's annual budgets and management plans, (2)
           review of employees’ and board members’ names to identify any related
           to the sponsor's administrator, (3) review of State agency program review
           files and reports, (4) discussions with State auditors and reviewers,
           (5) review of sponsor’s claims history, (6) review of correspondence and
           complaint files, and (7) review of the sponsor’s involvement in other
           programs or activities.


USDA/OIG-A/27601-8-Te                                                         Page 2
           During the week of January 24 through 28, 2000, we made unannounced
           home visits to 72 providers to verify claims and compliance with program
           requirements. The observations made during the visits were then
           compared to the January 2000 claims submitted by the visited providers.
            The sponsor's actual claim for the month of January 2000 was dated
           February 14, 2000, and included claims for 155 providers. We noted that
           65 of the 72 providers we visited submitted meal claims in January 2000.


           Audit coverage at the sponsor level included a review of the sponsor's
           FY 1999 and the first 3 months of FY 2000 administrative costs totaling
           $164,224. We performed a detailed analysis of supporting receipts,
           cancelled checks, and bank statements to verify claimed administrative
           expense. In addition, we reviewed 333 monitoring visits of 74 providers
           performed by the sponsor during the period of March 16, 1998, through
           February 23, 2000.

           For FY 1999, the sponsor received $711,719.80 in Federal program
           funds. The sponsor retained $122,719.04 of the Federal funds to cover
           its administrative expenses. The remaining $589,000.76 was to
           reimburse the sponsor's providers for meal claims.

           The audit was conducted in accordance with the Government auditing
           standards, issued by the Comptroller General of the United States.
           Accordingly, the audit included such tests of program and accounting
           records as considered necessary to meet audit objectives.

                                     To accomplish our objectives, we
                                     interviewed officials and reviewed records at
      METHODOLOGY                    the Louisiana State Department of
                                     Education located in Baton Rouge,
         Louisiana, to obtain background information about the sponsor and
         details of prior State agency reviews of the sponsor. In addition, we
         obtained information concerning State-licensing requirements for home
         facilities.

           Background information on the sponsor and its providers was obtained at
           the Louisiana State Department of Education, Division of Nutrition
           Assistance. We based our universe of potential home visits on the
           December 1999 claim submitted by the sponsor that included meal
           claims for 173 homes.

           We interviewed staff members at the sponsor's office to obtain an
           understanding of their operating procedures.         We reviewed
           documentation provided to us to support the sponsor's claims for
           reimbursement of meal and administrative expenses. Records reviewed


USDA/OIG-A/27601-8-Te                                                      Page 3
           included receipts, cancelled checks, provider meal counts, and
           monitoring and training forms.

           The providers are located in Winnsboro, Louisiana, where the sponsor's
           headquarters is located and in various surrounding rural towns in
           northeast Louisiana. We judgmentally selected providers for home visits
           primarily on the basis of questionable meal patterns (maximum number of
           meals claimed for all children), taking into consideration locations and
           meal service times.

           At the day-care providers, we interviewed providers and other persons
           present; reviewed records, including attendance logs, meal counts, and
           licenses; and reviewed safety requirements, counted children in
           attendance, and observed general conditions .




USDA/OIG-A/27601-8-Te                                                      Page 4
           FINDINGS AND RECOMMENDATIONS


CHAPTER 1 – PROVIDER NONCOMPLIANCE WITH REGULATIONS

                                       We identified violations of program
        FINDING NO. 1                  regulations at 59 of the 72 providers visited
                                       (82 percent), including 2 providers who were
                                       not at home during the stated hours of
           operations. Of the 72 providers visited, 65 subsequently filed January
           2000 claims on which we identified 59 providers who did not comply with
           1 or more of the following requirements: feeding children, keeping
           records, operating at authorized times, claiming resident children meals
           when nonresidents children were not present, claiming children that were
           not enrolled in the CACFP, exceeding licensed capacity, and/or
           disregarding safety requirements. We concluded that these conditions
           developed because the sponsor did not adequately monitor the
           providers. As a result, we questioned $13,163 in excessive meal
           reimbursement to the providers (see exhibit C).

           Metro uses the State Form DCH-110, Sponsor Monitoring Form, to
           perform its provider reviews. This form serves as a checklist of items
           required by the State agency. State agency policy, CACFP-DCH-94-14,
           requires that the sponsor must monitor all meal types claimed by a
           provider within each year. Our review of 74 providers’ monitoring forms
           showed that 23 providers (31 percent) did not have all their authorized
           meal types reviewed by the sponsor within a year. In addition, sponsors
           must perform an onsite review of each provider 3 times a year, with not
           more than 6 months elapsing between reviews. Our review of the
           74 providers showed that the sponsor did not meet that requirement on
           3 providers. Further, we questioned the adequacy of the monitoring
           reviews because of the results we found during our home visits with the
           providers. Of the 70 providers we actually found at home, 59 (84 percent)
           had 1 or more violations of CACFP requirements. These violations are
           discussed in the following findings.

                                 Of the 59 providers with program violations,
 VALIDITY OF PROVIDERS’          we questioned whether 9 providers provided
                                 meals as claimed. Two providers were not
      MEAL CLAIMS
                                 home during our visits, and one filed a
     QUESTIONABLE                January meal claim for the days when OIG
                                 noted that they were not home. In addition,
        three providers advised us during the home visits that they had

USDA/OIG-A/27601-8-Te                                                       Page 5
                   discontinued participating in the program; two providers contacted the
                   sponsor after the home visits and requested that they be placed on
                   inactive status until further notice; and one provider requested that she be
                   dropped from the program. Further, one provider we visited and
                   suspected of filing false claims was found by the sponsor to have been
                   working outside the home since November 1999 and was terminated
                   from the program.

                   Federal regulation and Louisiana procedures prohibit providers from
                   claiming meal reimbursements if they are not home or are not caring for
                   children on the day of a review of their facilities. Also, Louisiana
                   procedures require providers to notify the sponsor when they are not
                   going to be home during scheduled times of day-care service. The
                   sponsor maintains a daily telephone log that records the date, time, name
                   of provider, comments that explain if a provider is not operating, and
                   when the provider resumed operations. Further, procedures require the
                   sponsor to research for fraud those providers who are not participating
                   as scheduled.1 These procedures function as an effective control for the
                   State agency.

                   For the two providers (nos. 55 and 56) who were not home during our
                   initial visit, we made one additional visit and still found no one home. We
                   also reviewed the sponsor’s daily telephone log for the days we visited
                   these providers and found they had not called in to report that they were
                   not operating. A subsequent review of the January 2000 meal claims for
                   these providers showed that one of the providers claimed meals on the
                   days OIG visited.

                   Provider 55 - We visited the provider twice and found no one home
                   during either visit even though the hours of day care operation were from
                   6:00 A.M. to 8:00 P.M.. We visited on January 25 at 8:40 a.m. and on
                   January 31 at 2:15 p.m. The provider claimed breakfasts, afternoon
                   snacks, and suppers on the days we visited. The overpayment totaled
                   $37 for January.

                   Provider 56 - We visited the provider twice and found no one home for
                   either visit. We visited the provider on January 27 at 10:57 a.m. and
                   again on January 31 at 10:10 a.m. A day after our first visit, the provider
                   called the sponsor and stated that she had stopped operating on
                   January 20 due to personal reasons and that she would call in when she
                   resumed operations. The provider did not claim meals after January 20,
                   2000.

                   We also questioned whether seven additional providers actually served
                   children all the meals they claimed. The providers informed us at the time
                   of our visit that they were no longer participating in the program, or after
1
    LA. CACFP-DCH 92-14.


USDA/OIG-A/27601-8-Te                                                                  Page 6
           our visit they requested the sponsor place them on inactive status. None
           of the providers notified the sponsor, prior to our visit, of their
           nonparticipation.

           Provider 14 - We visited the provider on January 25. The provider
           advised the audit team that she stopped participating in CACFP at the
           first of the year. However, our review of the sponsor’s call-in log showed
           that during the period of December 1999 through January 25, the
           provider had not called the sponsor to notify them that she was no longer
           participating in the program. The provider did not submit a meal claim for
           January.

           Provider 45 - On January 26, the provider stated during our visit that she
           no longer participated in the CACFP and did not intend to claim meals
           for January 2000. However, she subsequently submitted a January meal
           claim for $287. The sponsor denied the claim based on our review. The
           provider had not contacted the sponsor during the month of January to
           notify them that she was not participating in the CACFP. The sponsor
           notified us that on February 1, the provider asked to be placed on
           inactive status due to personal reasons.

           Provider 24 - We visited the provider on three separate occasions. We
           visited on January 25 at 12:40 p.m. and found no one home. On
           January 26 at 2:05 p.m., we spoke to the provider’s son. He said that he
           did not know where the provider was, when she would be back, or if she
           still provided day care. On January 27 at 10:50 a.m., we met with the
           provider and she stated that she stopped providing day care on January
           25, for personal reasons and that she had no records. The sponsor’s
           call-in log did not show the provider notified the sponsor that she was not
           participating. The provider did not claim meals after January 24, 2000.
           However, since she had no records to meet recordkeeping requirements,
           we questioned the $250 January meal claim she submitted for the period
           of January 3 through January 24. The sponsor disallowed the meals
           claimed on the January 17, holiday and placed the provider on inactive
           status effective January 25.

           Providers 57 - We visited the provider on January 25 at 5:45 p.m. and
           found that attendance and menu records were not available. The
           provider said her daughter had them, and they were not completed.
           There were no children at the provider’s home during our visit. The
           provider also told the auditors that she sold candy to the children in her
           care. Because the provider did not meet recordkeeping requirements,
           we questioned the meals claimed for the period of January 3 through
           21, which totaled $124. After our visit, the sponsor notified us that the
           provider asked to be placed on inactive status.




USDA/OIG-A/27601-8-Te                                                         Page 7
                  Provider 61 - We visited the provider on January 31 at 6:00 p.m., where
                  the daughter spoke to us from behind the door. The daughter told us that
                  her mother was not home, and she did not know when she would return.
                  The provider did not submit a meal claim for January. The sponsor
                  notified us that the provider called in after February 3, and requested to
                  be placed on inactive status.

                  Provider 70 - We visited the provider on January 26, and found that the
                  meal and attendance records were not current, and the provider did not
                  have a fire extinguisher. The provider also told us she was not caring for
                  children during the week of our review because her son was ill. On
                  January 31, the sponsor contacted the provider to follow up on errors we
                  found. The sponsor reported to us that the provider asked to be removed
                  from the program. The provider did not submit a January 2000 meal
                  claim.

                  Provider 59 - We visited the provider on January 25 and were required
                  to wait 35 minutes for the provider to produce the menu and attendance
                  records. The sponsor had previously conducted monitoring reviews on
                  January 18 and 24 and the provider was not home on either review.
                  Documented on the second monitoring review, the monitor questioned
                  whether the provider was working. After our visit, the sponsor conducted
                  a technical assistance visit on January 28, with the provider. The provider
                  informed the sponsor she was employed at the Tallulah Correctional
                  Center. The sponsor verified that the provider started working at the
                  center on November 17, 1999. The sponsor terminated the provider, and
                  the provider did not submit a January meal claim.

                                     Including the 9 providers previously
MEAL DISALLOWANCES DUE discussed, 59 did not comply with
 TO NONCOMPLIANCE WITH recordkeeping requirements, with approved
                                     hours of care and meal times, claimed
PROGRAM REQUIREMENTS meals for resident children when a
                                     nonresident child was not claimed, claimed
        meals for children that were not registered for CACFP, exceeded
        licensed capacity, and/or did not comply with safety requirements. As a
        result, these 59 providers received excessive meal reimbursements
        totaling $13,163.

                  Program regulations state that providers must keep daily records on
                  meal counts, menus, enrollment, and attendance to support their
                  sponsoring organization's reimbursement claims.2 Providers are also
                  required to see to the safety of the children in their care.3


2
3
  Code of Federal Regulations (CFR) 226.18 (d) and (e), May 22, 1996.
  Louisiana State Department of Education CACFP-DCH memoranda series, REF: CACFP-DCH-92-14, September 17, 1992,
and CFR 226.6 (d) (3), May 22, 1996.


USDA/OIG-A/27601-8-Te                                                                                  Page 8
                   Louisiana State Department of Education imposes the following
                   sanctions for program violations.4

          VIOLATION                                            SANCTION

          Provider not participating as scheduled.             Disallow payment for the day of service; require
                                                               provider to be notified of the consequences of
                                                               repeated findings; require followup and corrective
                                                               action within 5 working days. Require sponsor to
                                                               research for fraud.

          Daily meal count and menu records not being          Disallow payment from first of month to day prior to
          kept (1-day tolerance).                              review for nonrecorded days; require followup.

          Meal count records recorded in advance.              Disallow payment for days recorded in advance;
                                                               require corrective action and followup; require
                                                               provider be advised of fraud penalty.

          Service schedule noncompliant (different than        Cite and require corrective action;         disallow
          recorded schedule).                                  payment for the meal; require followup.

          Resident child claimed without nonresidents.         Disallow resident child for meals served without
                                                               nonresident.

          No menu record.                                      Disallow all children claimed for those meals .

          Imminent threat to the health or safety of the       Provider ineligible as of the day of review until
          children; inoperable smoke alarm or fire             compliance is documented by one sponsor follow
          extinguisher.                                        up review.

          More than six children at one time.                  Provider ineligible as of day of visit until
                                                               two-sponsor-conducted followup visits document
                                                               compliance. If the additional children found are
                                                               resident children, provider is ineligible from the
                                                               date provider became noncompliant once the
                                                               attendance of her own children is considered.


                   We contacted the education section administrator for the State agency to
                   obtain clarification for the definition of “not participating as scheduled.”
                   We were informed “not participating as scheduled” means if they attempt
                   to visit a provider during the provider’s stated hours of operation, and the
                   provider is not home and has not notified the sponsor, they are not
                   participating as scheduled. The sanction imposed is to disallow all meals
                   served to all children on the date of the visit.




4
    Louisiana State Department of Education CACFP-DCH memoranda series, REF: CACFP-DCH-92-14, September 17, 1992.


USDA/OIG-A/27601-8-Te                                                                                    Page 9
            During January 2000, we visited 72 home providers sponsored by Metro.
            For each of the 70 providers we found at home (2 providers were not at
           home), we determined whether: (1) providers complied with
           recordkeeping requirements, (2) providers complied with approved hours
           of care and meal times, (3) resident children were claimed only when
           nonresident children were also claimed, and (4) providers complied with
           health and safety requirements. (See exhibit C for a schedule of
           problems noted for each provider.)

           Most of the problems found resulted from providers not keeping
           adequate meal-count records. Providers are required to record on a
           daily basis which meals are served to each child in their care. Meal-
           count records should be completed through at least the prior day and not
           be prepared in advance. We found that ten of the providers had not
           maintained current meal-count records, and five providers had recorded
           meal counts in advance.

           Providers are also required to keep daily menus to record the specific
           food items served for each meal claimed. These records allow the
           sponsor to verify that meal component requirements are met. We found
           that 24 of the providers had not prepared menus and/or daily attendance
           count records for the month of January. Without accurate documentation
           of the meal components served, we were unable to verify that children
           received proper nourishment.

           We found that 13 providers were not participating as scheduled. We
           visited 11 of the providers more than once because the providers were
           not home during the providers’ stated hours of operations on the first
           visits. None of the 13 providers notified the sponsor that they were not
           home or were not operating on the day of our visit.

           Four providers planned meals that did not include all required food
           components, and two providers claimed meals for resident children
           without nonresident children present. We also found one provider that
           was not in compliance with its approved service schedule and one
           provider that claimed meals for a child that was not registered in the
           CACFP.

           Another provider (provider no. 30) was authorized to serve and claim
           suppers for enrolled children. During our visit, the provider told the audit
           team that she did not serve suppers. However, we determined that for
           the period of August through December 1999, the provider claimed 589
           suppers. Based on the provider statement, we questioned whether the
           entire 589 suppers were actually served to the children. Our review also
           found that the provider cared for more that six children at one time, and
           menus and attendance sheets were not available for inspection. The
           sponsor terminated the provider.


USDA/OIG-A/27601-8-Te                                                        Page 10
           In addition, we noted health and safety concerns and State licensing
           violations at 23 of the providers we visited. Five providers had more
           children present in the home than permitted by their licenses. Ten
           providers did not have working smoke alarms, and two providers did not
           have smoke alarms. One (provider no. 33) of the two providers that did
           not have smoke alarms advised the audit team that she had loaned her
           smoke alarm to another provider (provider no. 20). We classified both of
           these providers as not having smoke alarms. In addition to not having a
           working smoke alarm, provider 42 did not have protective plates on the
           electrical outlets and light switches. One provider (provider no. 75) used
           an open-flame heater without a screen and without an open window .
           There were four providers (provider nos. 8, 22, 70, and 71) that did not
           have fire extinguishers. We also noted unsanitary conditions at one
           house (provider no. 76).

           During our home visits, we noted that five providers had fire extinguishers
           with expired inspection tags. The Department of Public Safety, Office of
           the State Fire Marshal, makes on-site inspections of homes each year
           before providers can be certified. A checklist is used during these
           inspections to ensure health and safety standards are met. We contacted
           an official with the Louisiana Office of the State Fire Marshal and were
           advised that one of the items they check during the inspection is that the
           fire extinguisher is properly charged. According to the official, not posting
           the date of inspection of the fire extinguisher tag may have been an
           oversight, but not likely. There have been incidents where day-care
           operators loaned or borrowed other operators’ fire extinguishers.
           According to the official, they would like to see the names of the
           operators written in indelible ink on the operators’ fire extinguishers. This
           action would ensure that operators’ fire extinguishers are properly located
           in the homes that are inspected. Because all five of these providers had
           passed their latest fire inspections, we did not take exception to expired
           tags on the fire extinguishers; however, we endorse a recommendation
           that the names of the providers be written on the fire extinguishers.
           Examples of providers with health and safety concerns follow.

           Provider 22 - We visited the provider on January 27 at 2:30 p.m., and
           the provider told us that the fire marshal inspector took his fire
           extinguisher with her to get inspected and never returned it. The date of
           the fire marshal’s inspection was May 20, 1999. There has been no fire
           extinguisher in the home since the fire inspection. The provider stated
           that he called the sponsor and was told the sponsor would find it. The
           overpayment totaled $1,253.97 for the period May 20, 1999, through
           December 1999 because of no fire extinguisher. The sponsor
           disallowed the provider’s entire claim for January.

           Provider 71 - On January 31 at 1:30 p.m., we visited the provider and
           found that there was no fire extinguisher. The provider stated that the fire


USDA/OIG-A/27601-8-Te                                                         Page 11
           extinguisher had been turned over to an official from the sponsor about a
           week after the fire marshal inspected her home. The sponsor official was
           to repair and return the extinguisher according to the provider. The fire
           extinguisher has yet to be returned. We noted that the cabinets over the
           stove were charred on the outside due to a recent fire. The fire marshal’s
           inspection was conducted on December 29, 1999. We questioned the
           total January meal claim of $407.97.

           Provider 76 - We visited this provider on January 26 at 2:45 p.m., and
           had concerns about the sanitary conditions of the trailer home. The
           kitchen area had dirty dishes and dried/rotten food on the counters, table,
           and floor. Roaches were visible in large numbers in both the kitchen and
           living area. The living area had dried food, dirt, and other unidentifiable
           substances on the floor and furniture. The provider also did not have
           menu and attendance records for January. We questioned the meals
           claimed for the period January 3 through January 24 for no records and
           the meals claimed for the period January 26 through 31 for unsanitary
           conditions. The dollar amount of questioned meals totaled $397.80 for
           January. The sponsor disallowed $310.88 in meal claims to the provider
           for January.


 RECOMMENDATION NO. 1

           Instruct the State agency to evaluate the conditions disclosed in this
           report and determine if the sponsor is seriously deficient in its
           administration of the program, and take the appropriate action.

           FNS Response

           In the written response from the Supervisor of the Child Nutrition Section
           of FNSRO to the draft report, FNS agreed with the finding and
           recommendation.       The FNS advised that the State agency has
           terminated the sponsor.

           STATE AGENCY RESPONSE

           The Director of the Louisiana Department of Education, Division of
           Nutrition Assistance’ written response to the draft report stated that the
           State terminated the sponsor from participating in the CACFP effective
           December 31, 2000. The State agency also reported the sponsor,
           involved employees, and board members to USDA for inclusion on the
           national list of seriously deficient institutions.




USDA/OIG-A/27601-8-Te                                                       Page 12
           OIG Position

           We accept the management decision.


 RECOMMENDATION NO. 2

           Require the State agency to examine providers’ nos. 55 and 56 histories
           of participation to determine if the providers filed fraudulent claims. Notify
           OIG of the results of these examinations.

           FNS Response

           FNS agreed with the recommendation.

           STATE AGENCY RESPONSE

           The State agency agreed with the recommendation and has requested
           the sponsor to provide all CACFP documentation for children enrolled
           with providers nos. 55 and 56. The State will analyze the claims and
           contact the parents of the enrolled children to verify authenticity of the
           claims.

           OIG Position

           To reach a management decision, we need documentation supporting
           the results of the State’s analysis.


 RECOMMENDATION NO. 3

           Require the State agency to collect $9,567 (13,163 claimed less $3,596
           offset by the sponsor) from the sponsor for ineligible meals claimed by
           the providers listed in exhibit C.

           FNS Response

           FNS agreed with the recommendation.


           STATE AGENCY RESPONSE

           The State agency agreed with the finding and will issue a demand letter
           to the sponsor to recover the over claim in the amount of $9,567.



USDA/OIG-A/27601-8-Te                                                          Page 13
           OIG Position

           To reach a management decision, please provide a copy of the demand
           letter informing the sponsor of the amount owed and documentation that
           the amount owed has been established as a receivable or repaid.


 RECOMMENDATION NO. 4

           Instruct the State agency to work with the Louisiana Office of the State
           Fire Marshall to have the providers write their names and addresses on
           their fire extinguishers to maintain accountability of safety equipment.

           FNS Response

           FNS agreed with the recommendation.

           STATE AGENCY RESPONSE

           The State agency issued instructions, via e-mail, to all sponsors urging
           immediate recording of the providers’ names and addresses on their fire
           extinguishers. The State is discussing the matter with the staff of the
           Office of State Fire Marshall and is awaiting a decision.

           OIG Position

           To reach a management decision, please provide the result of the
           discussion with the staff of the Office of State Fire Marshall concerning
           the recording of the names and addressees of providers on their fire
           extinguishers.




USDA/OIG-A/27601-8-Te                                                      Page 14
                              EXHIBITS



A – SUMMARY OF MONETARY RESULTS



 Finding   RECOMMENDATION
                               Description       Amount        Category
 Number        Number

                            Ineligible Meals     $9,566.61 Questioned
                                                           Costs/
   1             3
                                                           Recommended
                                                           Recovery
                                                  3,596.22 Management or
                            Corrective Action
                                                           Operating
   1             1            by Sponsor on
                                                           Improvement/
                             Ineligible Meals
                                                           Savings
                                Total           $13,162.83




USDA/OIG-A/27601-8-Te                                              Page 15
 B – SUMMARY OF PROVIDERS NOT HOME




                                                                         On Days of




                                                                                                                                           Disallowances
                                                                         or More Visits
                                                            Meal Types
                                            Application
                                            Operations




                                                                                                                                           Amount of
                                                            Approved




                                                                                          Breakfast
                                 Times of



                                            Hours of
          Provider




                                                                         Claimed
                      Dates of
          Number




                                                                                                                                  Supper
                                                                                                                  Lunch
                                                                         Meals




                                                                                                          Snack




                                                                                                                          Snack




                                                                                                                                                               Notes
                      Visits



                                 Visits




                                                                                                                                           Meal
                                                                                                          A.M.




                                                                                                                          P.M.
                                                                         One
                                            per
                     01/25/00 8:40 a.m.      6:00 a.m. to                                     12                            12      12        $ 37.32
              55                                            B,L,P,S               B,P,S
                     01/31/00 2:15 p.m.         8:00 p.m.

                                             6:00 a.m. to
              56     01/27/00 10:57 a.m.                    B,L,P,S                                   0              0        0        0                   0   (A)
                                                6:30 p.m.
                     01/31/00 10:10 a.m.

                                                                               TOTAL                                                           $37.32
         Note:

         (A) On January 28, a day after our initial visit, the provider called the sponsor to advise that she stopped operating on
         January 20 due to personal reasons.




USDA/OIG-A/27601-8-Te                                                                                                         Page 16
C – SUMMARY OF PROVIDERS WITH ERRORS FOUND DURING HOME VISITS




                                                                                                                                                Amount Due From Provider
                                                                                                                   Corrective Action by
                                                                                               Amount of Meal
    Number Count




                                                                                               Disallowances
                                           A.M. Snack




                                                                    P.M. Snack
                               Breakfast
                   Provider




                                                                                                                   Sponsor
                   Number




                                                                                  Supper
                                                           Lunch




                                                                                                                                                                               1       2 3 4 5 6            7 8 9 10 11 12 13 Notes
      1                 1      64                         32        96            96       $323.20              $323.20                                                    X                        X
      2                 2                                                                                                                                                  X                                                    (H),(L)
      3                 5      44                                   44            44        136.84                74.64                    $62.20                                  X                    X
      4                 6                                 14        16            16         58.70                13.33                     45.37 X                                     X
      5                 7      60                                   60            60        186.60               186.60                                                                             X
      6                 8                                           18            21         44.49                10.14                     34.35                                                   X X
      7                 9      28                                   28            28         87.08                87.08                                                                             X
      8              10        90                                   90            90        279.90               130.62                    149.28                                                   X
      9              11        12                           3       15            15         48.96                11.64                     37.32                                  X
   10                12         5                                                              4.60                                           4.60                                              X
   11                13 1,200                           1,468 1,475              272       4,727.26                                       4,727.26                                                  X        X                  (A),(D)
   12                14                                                                                                                                                                                              X          (D)
   13                15        48                                   48            48        149.28               149.28                                                                             X
   14                16        75                                   75            80        241.70               241.70                                                                             X                    X
   15                17                                  114       114           114        442.32               309.40                    132.92                                                   X X
   16                18                                                                                                                                                            X                                            (K)
   17                20        25                                   25            25         77.75                                          77.75                                           X           X
   18                21                                     2                                  3.38                                           3.38                                                               X
   19                22       222                                  447           453       1,319.28               65.31 1,253.97                                                   X            X       X                       (B)
   20                23        24                         20        24                       67.88                16.97                     50.91                                  X                         X
   21                24                                   64        80            60        249.56                16.02                    233.54 X                                                 X                           (M)
   22                25        20                                   20            20         62.20                 3.11                     59.09                                                   X X
   23                27        18 18                      18          8            8         73.50                                          73.50                                                                            X (l)
   24                28        85                                   85            85        264.35                31.10                    233.25                                  X                    X
   25                29        96                         96        96                      298.56                37.32                    261.24                                                   X
   26                30                                                                                                                                                                     X       X        X                  (D),(E),(H)
   27                31                                     4                                  6.76                5.07                       1.69                                          X
   28                32        17                         17        35            36        122.71                85.15                     37.56                                           X       X X


USDA/OIG-A/27601-8-Te                                                                                                                                                                                   Page 17
                                                                                                                                        Amount Due From Provider
                                                                                                             Corrective Action by
                                                                                          Amount of Meal
    Number Count




                                                                                          Disallowances
                                           A.M. Snack




                                                                 P.M. Snack
                               Breakfast
                   Provider




                                                                                                             Sponsor
                   Number




                                                                               Supper
                                                        Lunch




                                                                                                                                                                       1       2 3 4 5 6       7 8 9 10 11 12 13 Notes
   29                33         5                                  5            5        15.55              15.55                                                                          X
   30                35         7                       17       24            24        87.73                                       87.73                                                 X
   31                36         5                                  6            6        19.43                                       19.43 X                                               X
   32                39        20                       10       30            30       101.00                                      101.00                                                      X
   33                40                                 32       80            80       229.28                                      229.28                                            X
   34                41        16           8           35       16            12       106.15                                      106.15                                 X
   35                42                                 83       83            83       322.04              98.33                   223.71                                            X X
   36                45                                 40      100           100       286.60             286.60                                                                                   X           (C ),(G)
   37                46                                 20       20            20        77.60              77.60                                                               X
   38                47                                          20            25        52.25              43.80                     8.45                                      X
   39                48                                 20       20            20        77.60              19.40                    58.20                                                      X               (H)
   40                49         8                        8       20            18        61.30                                       61.30 X                                               X
   41                50        45                                86            85       228.05              15.90                   212.15                                            X
   42                53                                            6            6        13.14                                       13.14 X
   43                55        12                                12            12        37.32              11.98                    25.34 X
   44                56                                                                                                                                            X                                            (G)
   45                57        33                       33       75                     123.63               9.33                   114.30                                            X                         (G)
   46                58                                                                                                                                                    X                                    (K)
   47                59                                                                                                                                                                                         (D),(H),(J)
   48                60        51                       21       51           102       280.29             280.29                                                                     X
   49                61                                                                                                                                            X                                            (D),(G)
   50                66                                                                                                                                            X            X          X                    (D)
   51                68                                          19            19        41.61               2.19                    39.42                                                              X
   52                69        75                       15       90            90       291.45             291.45                                                                     X
   53                70                                                                                                                                                               X X                       (D),(F)
   54                71        72                       48      119           119       407.97              20.20                   387.77                                 X               X
   55                72         4                       12       14                      30.96               5.38                    25.58 X                                    X
   56                73                                 36      108           108       297.36              16.52                   280.84 X                                          X
   57                74         2                        3         3                      8.41               1.69                     6.72                                 X
   58                75        75                       15       90            90       291.45             291.45                                                                     X X
   59                76       110                       20      120           120       397.80             310.88                    86.92                                            X X




USDA/OIG-A/27601-8-Te                                                                                                                                                                      Page 18
                                                                                                           Number Count
                                                                                                           Provider
                                                                                                           Number


                                                                                                           Breakfast

                                                                                                           A.M. Snack




                        Totals
                                                                                                           Lunch




USDA/OIG-A/27601-8-Te
                                                                                                           P.M. Snack


                                                                                                           Supper




                                                                                                           Amount of Meal
                                                                                                           Disallowances



                                                                                                           Corrective Action by
                                                                                                           Sponsor




                                                                                                           Amount Due From Provider
                                                                                 1
                                                                                 2 3 4 5 6


                        $13,162.83 $3,596.22 $9,566.61 13 10 5 4 2 24 18 5 1 2




Page 19
                        1 1
                        1
                                                                                 7 8 9 10 11 12 13 Notes
   Legend:
    1 Provider not participating as scheduled.
    2 Daily meal count and menu records not being kept (1 day tolerance).
    3 Meal count records recorded in advance.
    4 Meal noncompliant (meal did not include all required meal components).
    5 Resident child claimed without nonresidents.
    6 No menu records and/or attendance sheets for January 2000.
    7 Imminent threat to the health or safety of the children (no fire extinguisher and/or smoke detector and/or unsanitary home).
    8 More than six children at one time.
    9 Service schedule noncompliant (different than recorded schedule).
   10 Provider did not contact sponsor that she was not participating in CACFP in January 2000.
   11 Provider claimed meals for ineligible child (child not on program).
   12 Provider claimed meals when OIG witnessed no children at meal service.
   13 Provider approved for outside employment and not authorized to claim meals on days she
   worked.


   Notes:
   (A) During our visit there were eight children in the home including six enrolled and two live-in grandchildren who were not
      enrolled. Grandchildren were 11 months and 1 year old. The provider advised the auditors that the grandchildren have
      lived with her since they were born. Violation: more than six children at one time. Disallowance of meals includes meals
      for the period January 1999 through December 1999: breakfast - 573, Lunch- 735, p.m. snack - 738, and suppers - 165 at
      FY 1999 reimbursement rates; and breakfast - 627, lunch - 733, p.m. snacks - 737 and suppers - 107 at FY 2000
      reimbursement rates.
   (B) No fire extinguisher since May 21, 1999. The provider told auditors that the fire marshal took the fire extinguisher during
      annual fire inspection on May 20, 1999, and never returned it. Disallowance includes meals for the period May 21, 1999
      through December 1999: breakfast- 75, p.m. snack- 87, and suppers - 87 at FY 1999 reimbursement rates; and breakfast
      - 147, Lunch - 78, p.m. snack – 360, and suppers - 366 at FY 2000 reimbursement rates.
   (C) Provider advised audit team that she would not submit a January meal claim since she was not participating in CACFP.
      However, she submitted a January meal claim.

   (D) Provider did not submit a meal claim for January 2000.
   (E) Provider advised audit team that she does not serve suppers; however, the provider claimed 589 suppers during the
       period of August 1999 through December 1999. The sponsor terminated the provider and the January 2000 claim was not
       paid.
   (F) Provider requested that the sponsor remove her from the CACFP. Request was made after OIG visit.
   (G) Provider requested that the sponsor place her on inactive status until further notice. Request made after OIG visit.
   (H) Sponsor terminated provider.
   (I) Meals were disallowed for days provider worked at outside employment during September 1999.
   (J) Audit team advised sponsor of suspicions that the provider completed menus and attendance sheets while auditors
       waited for provider to look for records and cared for too many children. The sponsor subsequently conducted a technical
       assistance review and was informed by the provider that she was employed at a correctional center since
       November 11, 1999.
   (K) Provider took corrective action by not claiming meals questioned by the audit team on the January claim.
   (L) Provider became employed on January 25, 2000, the day of visit but did not call in to sponsor. Provider did not
       claim meals on day of visit and for the rest of the month.
   (M) On our third attempted visit on January 27, 2000, the provider advised audit team that she stopped caring for
       children on January 25, 2000, the day of our first visit. Provider did not notify sponsor of not caring for children.




USDA/OIG-A/27601-8-Te                                                                             Page 20
   D – SUMMARY OF PROVIDERS REQUESTING INACTIVE STATUS
   OR NOT PARTICIPATING IN CACFP AFTER OIG HOME VISIT




                                                  Operations per




                                                                                                                                           Disallowances
                                                                   Meal Types
                                                  Application




                                                                                              A.M. Snack




                                                                                                                   P.M. Snack




                                                                                                                                           Amount of
                                                                                Breakfast
                                                                   Approved
                                   Times of




                                                  Hours of
    Provider




                   Dates of
    Number




                                                                                                                                Supper
                                                                                                           Lunch




                                                                                                                                                            Notes
                   Visits




                                   Visits




                                                                                                                                           Meal
                   01/25/00       12:40 p.m.    7:00 a.m. to       B,L,P,S                                 64              80      60        $249.56 (A)
     24            01/26/00        2:05 p.m.      7:00 p.m.
                   01/27/00       10:50 a.m.
                   01/26/00       12:55 p.m.    6:00 a.m. to       B,L,P,S                                 40        100        100            286.60 (B)
     45
                                                  6:00 p.m.
                   01/25/00        5:15 p.m.    7:00 a.m. to       B,L,P,S         33                      33              75                  123.63 (C)
     57
                                                  6:30 p.m.
                   01/31/00        6:00 p.m. 11:00 a.m. to           L,P,S                                                                                 (C)
     61
                                                7:00 p.m.
                   01/25/00        9:05 a.m.    6:30 a.m. to       B,L,P,S                                                                                 (D)
     59
                                                  7:00 p.m.
                   01/26/00        8:45 a.m.    6:30 a.m. to       B,L,P,S                                                                                 (E)
     70
                                                  6:00 p.m.
                   01/25/00       10:35 a.m.    6:30 a.m. to       B,L,P,S                                                                                 (F)
     14
                                                  6:30 p.m.
                                                                                            Total                                        $659.79




Notes:

(A) On our third attempted visit on January 27, 2000, the provider advised the audit team that she stopped caring for
    children on January 25, 2000, the day of our first visit. Provider did not notify sponsor of her not caring for children.
(B) Provider advised audit team that she would not submit a January meal claim since she was not participating in
    the CACFP; however, she submitted a January meal claim.
(C) Provider requested that the sponsor place her on inactive status until further notice. Request made after OIG
visit.
(D) Audit team advised sponsor of suspicions that the provider completed menus and attendance sheets while
    auditors waited for provider to look for records, and that she cared for too many children. The sponsor
    subsequently conducted a technical assistance review and was informed by the provider that she was employed
    at a correctional center since November 11, 1999.
(E) Provider requested that the sponsor remove her from the CACFP. Request made after OIG visit.
(F) Provider did not notify sponsor that she was not participating in CACFP in January 2000.




   USDA/OIG-A/27601-8-Te                                                                                                                   Page 21
E – AUDITEE RESPONSE TO DRAFT REPORT




USDA/OIG-A/27601-8-Te                  Page 22
USDA/OIG-A/27601-8-Te   Page 23
                                                ABBREVIATIONS


CACFP
 Child and Adult Care Food Program............................................................................................i

FNS
  Food and Nutrition Service ..........................................................................................................i

Metro
 Metro Feed-A-Meal, Inc. ............................................................................................................i

OIG
  Office of Inspector General..........................................................................................................i

USDA
  United States Department Agriculture...........................................................................................i




USDA/OIG-A/27601-8-Te                                                                                                  Page 24
